GR-90-98-028
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE CITY OF WILLCOX
DEPARTMENT OF PUBLIC SAFETY, ARIZONA
GR-90-98-028
JUNE 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Willcox Department of Public Safety (WDPS), Arizona. The
WDPS received a grant of $71,748 to hire one sworn officer under the Universal Hiring
Program (UHP). The purpose of the additional officer under the grant program is to enhance
community policing efforts. 
In brief, our audit determined that the WDPS violated the following grant condition:

- The WDPS charged unallowable costs of $10,507 (federal share) to the UHP grant. These
  unallowable costs consisted of reimbursement for the grant funded officer while performing
  on-the-job training without contemporaneously assigning another officer to community
  policing duties. 
 
#####